* .

No.

IN THE
SUPREME COURT OF THE UNITED STATES

HAI A. DUONG — PETITIONER
vs.

DARREL VANNOY, WARDEN — RESPONDENT(S)
PROOF OF SERVICE
I, Hai A. Duong, do swear or declare that on this date, October \Jn> .
2020, as required by Supreme Court Rule 29 I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on ever)/ other person required to be
served, by depositing and envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
Jefferson Parish District Attorney’s Office
Attention; ADA Ann Wallis
200 Derbigny 5th Floor
Gretna LA 70053
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October ih

. 2020

l

«aU,

(Signature

